AUDIT OF THE NATIONAL HIGHWAY TRAFFIC
  SAFETY ADMINISTRATION’S ALCOHOL-
   IMPAIRED DRIVING TRAFFIC SAFETY
              PROGRAM
    National Highway Traffic Safety Administration

            Report Number: MH-2007-036
                   March 5, 2007
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Audit of the                                           Date:    March 5, 2007
           National Highway Traffic Safety Administration’s
           Alcohol-Impaired Driving Traffic Safety Program
           Report Number: MH-2007-036
  From:    Kurt Hyde                                                                 Reply to
                                                                                     Attn. of:   JA-40
           Assistant Inspector General
             for Surface and Maritime Programs
    To:    National Highway Traffic Safety Administrator

           This report presents the results of our audit of the National Highway Traffic Safety
           Administration’s (NHTSA) Alcohol-Impaired Driving Traffic Safety Program.
           NHTSA generally agreed with our report and has identified actions responsive to
           our recommendations. NHTSA stated that reducing alcohol-related fatalities has
           been and remains a top priority of the agency and its work related to the audit has
           already yielded program improvements.

           NHTSA is the lead Federal agency responsible for reducing alcohol-impaired
           driving. We performed this audit at the request of the House and Senate
           Committees on Appropriations. The Committees expressed concern that despite
           the combined efforts of Federal and state safety officials, no discernible progress
           has been made in reducing alcohol-related traffic crashes and fatalities.

           According to NHTSA statistics, alcohol-related traffic fatalities accounted for 39
           percent (or 16,885) of the 43,443 traffic deaths reported in 2005 in the United
           States. NHTSA’s data indicate that the rate of alcohol-related driving fatalities per
           100 million vehicle miles traveled (VMT) decreased from 0.63 in 1998 to 0.56 in
           2005. 1 The 2005 alcohol-related fatalities were the lowest since the 16,572
           fatalities reported in 1999—the year with the lowest number of fatalities ever
           reported. Exhibit A lists state reported alcohol impaired driving fatality rates and
           number of fatalities from 1998 to 2005.


           1
               Data based on NHTSA’s “Alcohol-Related Fatalities and Fatality Rates by States, 2004-2005,” DOT HS 810 686,
               released December 2006.
                                                                                                                    2


Reducing alcohol-related fatalities is an important aspect in reducing the overall
number and the rate of highway fatalities. 2 In addition to reducing the number of
overall highway fatalities, a reduction in alcohol-related crashes would yield
significant monetary savings, as NHTSA estimates that these crashes cost the
nation over $100 billion annually 3 in medical, property, and related costs.

Our audit objectives were to:

• compare the scope, direction, resources, and expenditures of programs and
  activities of selected states with the highest and lowest alcohol-related
  fatalities, and identify best practices and challenges;

• determine the Federal resources dedicated to reducing alcohol-related traffic
  fatalities; and

• explore what actions NHTSA could take, particularly regarding improved
  performance measures, to better ensure that funds are targeted towards
  strategies that will have the most impact on reducing alcohol-impaired driving.

Our audit compared alcohol-impaired driving programs in 10 states—California,
Texas, New York, Ohio, Illinois, New Jersey, Missouri, Connecticut, South
Carolina, and New Mexico. We selected these states by dividing all states into
groups with comparable VMT, then choosing states with high and low alcohol-
impaired driving fatality rates within certain groups. For example, from the states
with the highest VMT, we selected one state with a relatively high alcohol-
impaired driving fatality rate—Texas—and one state with a relatively low rate—
California. (Exhibit B provides details on our sample.)

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States and we performed such tests as we considered necessary to detect
fraud, waste, and abuse.




2
    The Department of Transportation’s overall goal is to reduce the rate of highway fatalities to 1.0 per 100 million
    vehicle miles traveled by 2008. According to NHTSA’s “Traffic Safety Fact Sheet 2005, A Compilation of Motor
    Vehicle Crash Data from the Fatality Analysis Reporting System and General Estimates System,” DOT HS 810 631,
    released January 2007, the nation’s highway fatality rate in 2005 was 1.45 per 100 million vehicle miles traveled.
3
    In 2002, NHTSA published a study that determined that alcohol-related crashes in the United States cost the public
    more than $114.3 billion in 2000. This included $51.1 billion in medical, work loss, and related costs and
    $63.2 billion in quality of life losses.
                                                                                  3


RESULTS IN BRIEF
Officials in NHTSA and the 10 states we reviewed attributed success in combating
alcohol-impaired driving to many factors. They agreed that, while other strategies
may be important, a successful traffic safety program should include strategies
focusing on two key elements: (1) sustained enforcement of laws (to include
highly visible police presence and media efforts) and (2) effective prosecution and
full application of available sanctions. State officials reported on best practices
and challenges associated with carrying out these key strategies, and we concluded
that NHTSA should do more to measure state implementation of these strategies
so that additional funding for countering alcohol-impaired driving is effectively
used.

State officials identified a number of best practices used to implement these
program strategies. For example, in two states, officials used fines collected from
alcohol-impaired drivers to provide critical additional funding for local alcohol-
impaired driving programs. Also, some states had put into effect Internet-based
initiatives to help local communities apply for grants to strengthen enforcement
efforts.

In addition to the best practices reported, states noted significant challenges that
needed to be overcome so that the full benefit of the key program strategies could
be achieved. These challenges included an inability to fund all police patrols
requested and problems created due to lengthy arrest procedures. Our detailed
findings provide specifics on state actions employed to counter these challenges.

Both past and current surface transportation legislation dedicated Federal
resources to reducing alcohol-related fatalities. Specifically:

• We estimate that all states will expend about $1.1 billion in Federal resources
  by the end of fiscal year (FY) 2009 for alcohol-impaired driving safety
  programs funded through the 1998 Transportation Equity Act for the 21st
  Century (TEA-21). This includes $260 million in expenditures from a grant
  dedicated solely to reducing alcohol-impaired driving, expenditures from
  grants not dedicated solely to reducing alcohol-impaired driving but available
  for these efforts, the expenditures of funds obtained from the transfer of
  Highway Trust funds for alcohol-related programs, and an estimate of
  resources provided but not yet expended.

• The Safe, Accountable, Flexible, Efficient Transportation Equity Act: A
   Legacy for Users (SAFETEA-LU), which reauthorized surface transportation
  programs in August 2005, significantly increased funding for the grant
  program dedicated solely to reducing alcohol-impaired driving. It also
                                                                                 4


   increased funding for grants that are not dedicated solely to reducing alcohol-
   impaired driving but which can be used, in part, for these efforts.

Ensuring the wise use of future funding requires a way of measuring which
programs have been most effective. Currently, state annual plans and reports
generally contain performance measures focusing on activities accomplished, such
as the number of sobriety checkpoints conducted, or on the overall performance
goal of reducing the alcohol-impaired fatality rate. However, the plans and reports
do not usually address the overall performance of key strategies such as sustained
enforcement, in which sobriety checkpoints may be an element supporting this
strategy. Consequently, we concluded that NHTSA’s ability to fully gauge the
impact of Federal resources and the effectiveness of state strategies could improve
if it required the states to include in their annual plans and reports more
meaningful performance measures linked to the key program strategies.

The treatment of sustained enforcement in the 10 states we reviewed provides an
illustration of this situation. Those 10 states recognized the importance of
sustained enforcement and NHTSA had communicated a quantitative definition
for sustained enforcement to the states. According to NHTSA, sustained
enforcement was defined as “at least one enforcement event conducted weekly in
areas of a state where 60 percent or more of the alcohol-related fatalities
occurred.” Yet, none of the states included this measure in their annual plans or
reports provided to NHTSA. The accumulation of data on this measure for all
states would provide NHTSA and other decision makers with useful information
on the degree to which Federal resources had led to sustained enforcement, and
where additional resources would be needed. Regarding effective prosecution,
NHTSA had not yet established a specific measure, although one state did report
to a limited extent on improvements in conviction rates for alcohol-impaired
driving offenses.

We recognize that the development of such intermediate performance measures,
which address the degree to which key strategies are being implemented, and the
accumulation of supporting data, will present significant challenges to NHTSA
and the states. However, effective performance reporting will help program
managers target Federal resources to the areas most likely to lead to future
reductions in alcohol-related traffic fatalities. Our three recommendations to
NHTSA provide for a phased approach to develop, implement, and assess these
measures in coordination with the states. See page 15 for a complete list of our
recommendations.
                                                                                 5


SUMMARY OF AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
We provided NHTSA a draft of this report on December 15, 2006. On February 7,
2007, NHTSA provided us with its formal comments (see page 34). NHTSA
concurred with two of our three recommendations and proposed an alternative to
the third recommendation, which we have accepted. Specifically, NHTSA
concurred with our recommendation that it work in coordination with the states to
develop intermediate performance measures of key strategies being implemented.
It noted that this action will allow the states and NHTSA to better determine the
effectiveness of key strategies and adjust the states’ Highway Safety Plan as
necessary. NHTSA is planning a project scheduled to begin in 2007, with a
completion date of no later than 2009, to develop voluntary guidance on a set of
intermediate performance indicators that could be used by state and local
governments to measure success in priority program areas, which include impaired
driving.

NHTSA also concurred with our recommendation that it periodically assess the
degree to which states have adopted the recommended performance measures, the
results from the measures, and the actions needed to assist states in fully
implementing the use of performance measures. Finally, as an alternative to our
recommendation that it require states to report on the use of intermediate
performance measures in state Highway Safety Plans and Annual Evaluation
reports, NHTSA agreed to recommend and encourage states to use the
intermediate performance measures after their development. We accept the
alternative action and consider NHTSA’s comments on our recommendations to
be responsive. However, we request that NHTSA provide specific milestones for
completing its planned actions for two of the three recommendations within
30 calendar days of this final report. Our complete analyses of NHTSA’s
comments are on pages 16-17 of this report.

FINDINGS
Officials Linked Program Success to Sustained Enforcement and
Effective Prosecution with Sanctions
State officials reported that a great part of past success in countering alcohol-
impaired driving depended on two key program elements: (1) sustained
enforcement of laws (a strategy that includes highly visible police presence and
media efforts to raise public awareness) and (2) effective prosecution and the full
                                                                                                                       6


application of available sanctions. 4 We found that all 10 states we reviewed
applied these key strategies in varying degrees. State officials reported best
practices that worked in carrying out these strategies and the challenges to be
overcome so that the full benefit of the program could be achieved. Although they
employed other strategies, such as medical and educational strategies, state
officials used these strategies less frequently. All of these strategies were
consistent with those advocated by NHTSA. (For a full description of NHTSA-
advocated strategies for combating alcohol-impaired driving, see Exhibit C.)

Sustained Enforcement. All the states we reviewed employed a sustained
enforcement strategy, which included high visibility enforcement by police
through sobriety checkpoints or saturation patrols 5 and media efforts to raise
public awareness. States with low alcohol-related fatality rates reported using an
array of best practices for achieving a sustained enforcement strategy, such as
ensuring that enforcement programs were provided steady funding, addressing
local community needs, or streamlining arrest procedures. Specifically:

• New York directed over $20 million that was collected annually in impaired
  driving fines and penalties into community alcohol-impaired driving
  enforcement efforts.

• California, New Jersey, New York, and Ohio posted Federal grant information
  on-line to assist local communities in applying for alcohol-impaired driving
  enforcement grants. Also, California offered local communities a streamlined
  grant template—making grant applications easier, which encouraged local use
  of high visibility enforcement grants.

• New Jersey and New York reported that their state police ensured statewide
  enforcement by routinely performing traffic enforcement in communities
  where local police lacked resources.

• California, New York, and Ohio reported using task forces to target areas with
  a higher rate of alcohol-impaired driving or underage drinking incidents.
  Connecticut used “flexible” enforcement, which combines state police
  enforcement efforts with local efforts to target areas experiencing a higher rate
  of alcohol-impaired driving.




4
    We did not review the effectiveness of the specific media being employed nor determine whether the absence or
    presence of certain laws, such as alcohol beverage control and point of sale laws, affected a state’s alcohol-impaired
    driving program. See Exhibit B for more details on scope and methodology.
5
    Saturation patrols are coordinated law enforcement efforts in locations known to have high concentrations of alcohol-
    related arrests, crashes, injuries, or fatalities.
                                                                                                              7


• New York reported on actions taken to avoid excessive arrest times, which
  may discourage police from enforcing alcohol-impaired driving offenses and
  take time away from other enforcement efforts. These actions included
  assigning two officers to a patrol car during anticipated high-risk alcohol-
  impaired driving times and providing the officers with evidentiary equipment
  (such as breathalyzers) necessary to arrest offenders quickly.

• Connecticut reported employing an alcohol testing and processing vehicle at
  enforcement events, such as sobriety checkpoints, which reduced the time that
  officers spent on each arrest. These vehicles provided breathalyzers, video
  equipment, computers, and other equipment on-site to increase the number of
  arrests.

Table 1, below, provides examples of best practices reported in states with low
fatality rates.


        Table 1. Best Practices Reported in Low Fatality Rate States for
                      Generating Sustained Enforcement

9   NY* encouraged participation by directing $20 million yearly in alcohol-impaired driving fines and
    penalties back to local communities for use on impaired driving enforcement and related equipment.
    NJ* also directed a portion of fines and penalties to local communities.
9   NY and OH* established traffic-safety organizations to support local efforts throughout the state and
    improve communication:
           - NY’s STOP DWI program.
           - OH’s “Safe Communities” program.
9   NY and NJ state police performed numerous alcohol-impaired driving enforcement activities in areas
    lacking local police resources.
9   CT* state police used “flexible” enforcement to target risk areas in conjunction with local enforcement
    or on their own.
9   CA,* CT, NJ, NY, and OH used various data other than fatalities to target enforcement, such as
    increased impaired driving citations or traffic crashes, blood alcohol content (BAC) levels, or citizen
    complaints.
9   CA, NJ, NY, and OH provided grant information and guidance on-line to assist local communities in
    applying for grants.
9   CA developed streamlined grant applications for routine high visibility enforcement grants.
9   CA and NY required reports on county performance establishing greater accountability.
9   CA used task forces to pool resources for impaired-driving issues.
9   NY, CT, and CA directed the largest portion of their TEA-21 grant funding toward impaired driving.
9   CT and NY used standing statewide committees to address traffic safety issues.
9   NY and OH used traffic safety-related committees or boards at local levels.
9   NY, CA, and NJ used a regional approach or regional safety zones to monitor local activities.
9   CT deployed a mobile BAC and impaired driving processing vehicle.
*NY=New York, OH=Ohio, NJ=New Jersey, CT=Connecticut, CA=California.
Source: OIG analysis of information from the states reviewed.
                                                                                      8


While those states in our review with the higher alcohol-impaired driving fatality
rates exhibited some of the practices listed above, they generally reported using
these practices less frequently. For example, although four of the five low fatality
rate states reported having grant information available on-line, none of the high
fatality rate states reported having grant information on-line. However, high
fatality rate states also provided notable practices that benefited their sustained
enforcement efforts. For example, some used injury severity data and other non-
fatality data to identify high risk impaired driving areas, set goals for each locality,
provided blood alcohol testing equipment throughout the state, and conducted
independent assessments of highway safety programs to identify weaknesses.

Although each of the 10 states we reviewed reported some best practices, they also
reported challenges in carrying out sustained enforcement. For example, some
states reported:

• an inability to fund all police patrols requested, which produced gaps in
  enforcement or decreased the states’ ability to target areas with a higher
  incidence of alcohol-impaired driving.

• legal restrictions on the use of the NHTSA-advocated sobriety checkpoints.
  The restrictions limited the use of this enforcement tool, which, according to
  NHTSA, when combined with news coverage can increase public awareness of
  the consequences of driving while alcohol impaired.

• constraints on state police authority within certain jurisdictions in a state. The
  constraints limited the ability of certain state police departments to provide
  supplemental manpower to local law enforcements.

• lengthy arrest procedures that increased the cost of making arrests, decreased
  the number of offenders arrested during peak alcohol-impaired driving periods,
  and acted as a disincentive for police to make arrests.

Further details on reported challenges from all 10 states in carrying out sustained
enforcement are provided in Table 2 on the following page.
                                                                                                              9




     Table 2. Challenges Reported in Generating Sustained Enforcement

 9    Evidentiary requirements of alcohol-impaired driving arrests tied up police officers during high-risk
      impaired driving periods.
 9    State budget cuts or resource availability limited traffic safety funding choices.
 9    Eligible local communities did not apply for grants.
 9    State police were not available to support alcohol-impaired driving programs due to competing
      priorities. A high concentration of rural roads or out-of-state drivers made it harder to enforce
      impaired driving laws.
 9    State highway safety programs were able to fund only a limited number of grant requests.
 9    It was difficult to fund high-visibility enforcement when needed to coincide with high-risk driving
      periods.
 9    Police were unable to perform sobriety checkpoints due to legal restrictions.
 9    State police had jurisdiction limitations, such as the inability to operate within local communities.
 9    State and local police forces were understaffed.
 9    Organizational conflicts or the political climate limited program implementation.
 9    Insufficient resources were available to routinely use task forces.
 9    Safety officials were prohibited by state law from lobbying for legislative changes.
 9    Officials had difficulties getting the type of data needed to better plan and run programs.
 9    There were too many or unclear national priorities or recommended approaches to choose from.
 Source: OIG analysis of information from the states reviewed.



Effective Prosecution and Sanctions. All 10 states we reviewed reported
challenges in ensuring offenders were convicted and sanctions were applied.
According to NHTSA, one aspect of effective prosecution depends on the
involvement of well-trained police officers and effective prosecutors. Another
aspect is the application of sanctions as determined by an adjudicating official.
Ineffective prosecution and the failure to apply sanctions against those convicted
of alcohol-impaired driving were perceived by officials as weakening the success
of enforcement efforts. For example,

• in one state, a safety official expressed concern that judges imposed court
  supervision against guilty parties instead of fines or penalties, which lessened
  the effect enforcement could have as a deterrent. The lack of strict
  enforcement sent a message to drivers that an arrest would have limited
  consequences.

• officials in three states reported having difficulty preventing individuals from
  driving with a revoked or suspended license and identifying repeat offenders.

To address these challenges, states took actions aimed at improving prosecutions
and the application of sanctions. Specifically, they:
                                                                                  10


• provided prosecutors training or guidance material to reduce the likelihood of
  plea-bargaining to lesser offenses and to decrease the number of cases
  dismissed based on technicalities.

• educated judges on alcohol-impaired driving laws to ensure sanction-related
  laws are correctly applied.

• tried cases in courts specializing in alcohol-impaired driving cases to ensure
  that repeat offenders were provided more intensive attention to correct their
  identified behavior. For example, Orange County, California, obtained Federal
  funding from TEA-21 to establish a Driving Under the Influence (DUI) court
  that includes the monitoring of treatment being given to DUI court participants
  and other initiatives aimed at reducing repeat offenders.

• established a prosecutor liaison, who was responsible for addressing questions
  from local prosecutors throughout the state with regard to alcohol-impaired
  driving laws and case adjudication.

Other Strategies. We found that under TEA-21 the 10 states also applied medical
and educational strategies. However, in contrast to the key strategies of sustained
enforcement and effective prosecutions with full application of sanctions, the
states reported on these strategies less frequently.

According to NHTSA, medical strategies include medical screening, which
consists of a primary or emergency room physician conducting short interviews
with patients to screen for alcohol problems and to discuss the adverse effects of
alcohol abuse and possible treatments. One state reported that it was actively
exploring the implementation of medical screening in emergency rooms.
Additional medical strategies advocated by NHTSA included offender treatment
and rehabilitation.

In the area of educational initiatives, each of the 10 states reported providing some
form of educational program on alcohol abuse at elementary schools, secondary
schools, or colleges. The schools, however, used various types of programs and
methods. Examples provided by state highway safety officials included:

• eliciting state police officers to make presentations to elementary and
  secondary school students with the aid of videos and educational materials, to
  illustrate the effects of alcohol-impaired driving;

• holding mock alcohol-impaired driving trials at schools or having students
  witness actual court proceedings;
                                                                                  11


• having convicted offenders, victims of alcohol crashes, or surviving family
  members of crash victims address students;

• disseminating educational materials at public forums, such as shopping malls,
  or events such as fairs or sporting events, where youth gather;

• conducting information sessions on college campuses to promote social events
  that do not involve alcohol; and

• providing educational material to organizations at elementary schools,
  secondary schools, and colleges that request assistance.

State Officials Reported Benefits From TEA-21 Funding
We estimated that during the initial authorization of TEA-21, from FY 1998
through FY 2003, and subsequent TEA-21 reauthorizations for FYs 2004 and
2005, states expended approximately $753 million in TEA-21 resources on
alcohol-impaired driving programs. On a per state basis, the amount of
cumulative TEA-21 expenditures in this 8-year period ranged from $850,000 to
$86 million. Further, based on past expenditure data, we estimated that states will
spend an additional $349 million of TEA-21 resources on alcohol-impaired
driving programs by 2009. These resources were previously allocated but remain
available to states under Federal appropriation law. Exhibit D provides further
details on Federal funding for alcohol-impaired programs, including information
on specific state expenditures.

The full impact that TEA-21 has had on alcohol-impaired driving programs is
difficult to measure because of the range of factors contributing to alcohol-
impaired driving and the number of government programs involved. Specifically,
alcohol-impaired driving is a multifaceted problem influenced by demographic,
cultural, and attitudinal differences. Another factor making it difficult to measure
the effectiveness of TEA-21 resources is the variation in state funds directed at the
problem. Additionally, other traffic safety initiatives, such as increasing seat-belt
use, affect survivability in alcohol-related traffic crashes, reducing the number of
alcohol-related fatalities.

In discussing the impact TEA-21 resources had on their states, officials at three
states cited their programs’ heavy reliance on TEA-21 resources to conduct
alcohol-impaired driving programs, and two states reported having significant
additional resources available for this effort generated from fines and penalties.
Officials in all states we reviewed reported that the resources provided under
TEA-21 have benefited their efforts to some extent. Specifically, states reported
using the funds for (1) overtime pay for police carrying out enforcement efforts,
(2) media spots to coincide with sustained enforcement campaigns conducted by
                                                                                  12


the states, and (3) training for judges and prosecutors to ensure that sanctions were
appropriately applied to first-time and repeat offenders.

In their comments on the benefits derived from TEA-21 funding, state officials
also reported that the traffic safety programs they proposed to NHTSA at the
beginning of certain fiscal years were curtailed or deferred to subsequent years
because Federal resources were not available as planned. As a result, anticipated
benefits from the funding were delayed. A reason cited for non-availability of
funds was delays in the Federal and state appropriation processes, which
sometimes prevented funds from being available until late in a fiscal year.
NHTSA and state officials cited this timing problem as part of the reason some
states carried forward substantial amounts of unexpended Federal funds from year
to year. For example in our $349 million estimate of future TEA-21 expenditures
by states, approximately $61 million resulted from Section 410 Alcohol-Impaired
Driving Countermeasures grants being carried forward from previous years. This
amount equated to about 23 percent of the total resources provided to the states
under Section 410 during TEA-21.

Better Performance Measures are Needed to Fully Gauge the Impact
That Future Federal Resources Will Have on State Programs
NHTSA’s ability to fully gauge the impact of Federal resources and the
effectiveness of state strategies to counter alcohol-impaired driving could improve
if states included in their annual plans and reports more meaningful performance
measures linked to key program strategies, such as sustained enforcement. Under
the requirements in place under TEA-21 and extended under SAFETEA-LU, all
states must submit to NHTSA their annual Highway Safety Plans. Each plan must
identify the proposed alcohol-impaired driving initiatives and other safety
initiatives funded through Federal resources. SAFETEA-LU also requires that
each state submit to NHTSA at the end of each fiscal year an Annual Evaluation
Report to show a state’s progress in meeting safety goals.

Our review of state plans and reports found that the states generally included
overall performance goal measures and activity measures, but the plans and
reports did not include measures showing the degree to which the states were
carrying out key strategies. Specifically, the Highway Safety Plans and Annual
Evaluation Reports for the 10 states we reviewed included overall performance
goal measures such as reducing the number of impaired drivers under the age of
21 involved in injury crashes and reducing the alcohol-impaired fatality rate in the
state. The plans also included activity measures such as the number of saturation
patrols and/or sobriety checkpoints conducted by the state. However, the
Highway Safety Plans or Annual Evaluation Reports generally did not include
performance measures for assessing a state’s implementation of key strategies.
                                                                                13


For example, no state plans or reports included a measure addressing the degree to
which the state had carried out a sustained enforcement strategy.

The state plans and reports did not include a performance measure for sustained
enforcement even though NHTSA provided the states in 2003 with a definition for
sustained enforcement that could be used as a performance measure. NHTSA
defined sustained enforcement as at least one enforcement event, such as a
sobriety checkpoint or a saturation patrol, conducted weekly in areas of the state
where 60 percent or more of fatalities occur.

Such intermediate performance measures, which address the degree to which key
strategies are being implemented, have been recognized by NHTSA as a useful
and distinct measure in addition to overall performance goal measures and activity
measures. NHTSA has established these intermediate performance measures in
other areas such as seat belt use and acknowledged the need for better intermediate
performance measures related to the key strategies we identified in our report.

It will be particularly important under SAFETEA-LU for NHTSA to be able to
gauge states’ performance regarding sustained enforcement because, as a
condition for certain highway safety grants, the reauthorization act requires new
assurances that states will support sustained enforcement of impaired driving laws.
The development and implementation of more meaningful intermediate
performance measures would provide NHTSA the data it needs to determine the
degree to which states are adopting the sustained enforcement measure supported
in SAFETEA-LU as well as other strategies, including effective prosecution and
sanctions, which are recognized by the states and NHTSA. 6

Regarding effective prosecution, NHTSA had not established a specific gauge to
measure the states’ success and neither had 9 of the 10 states we reviewed.
However, 1 of the 10 states we reviewed did include limited data on conviction
rates under grants designed to increase the number of successful convictions.
South Carolina’s 2004 Annual Evaluation Report contained detailed information
about grants awarded to state police, counties, and cities, including prosecution
data. For example, the report showed that a grant awarded with a goal of
increasing alcohol-impaired driving conviction rates by 5 percent led to a
30-percent increase in the conviction rate for that area. While other performance
measures addressing this area, such as the percentage of judges and prosecutors
exposed to educational programs, might also be meaningful, South Carolina’s
limited efforts indicate the feasibility of using intermediate performance measures
related to effective prosecution.



6
    For a discussion of NHTSA-advocated strategies, see Exhibit C.
                                                                                                           14


Table 3, below, illustrates the benefits of reporting on intermediate performance
goals and measures for the key strategies identified in our report and the resulting
benefits obtained from having such data available across the states. The table
includes elements of the sustained enforcement definition that NHTSA has set
forth. However, we recognize that NHTSA might develop alternative measures in
this area and others after consultation with the states.


             Table 3. Examples of Potential Intermediate Performance
                              Goals and Measures

                      Potential Intermediate
                                                         Potential Benefits for NHTSA if States Used
   Strategy           Performance Goals and
                                                                       Such Measures
                            Measures
 Sustained         Accomplish sustained                  NHTSA could better determine the degree to which
 Enforcement       enforcement at a set percentage*      states were carrying out SAFETEA-LU required
                   of at-risk areas in the state.        assurances to pursue this strategy.
                                                         NHTSA could better determine whether emphasis
                                                         on sustained enforcement had an impact on alcohol-
                                                         related fatalities and injuries in at-risk areas.
 Prosecution       Achieve a set percentage* of          NHTSA could better determine whether specialized
 and Sanctions     successful convictions for            training programs for prosecutors had an impact on
                   alcohol-impaired driving              conviction rates.
                   offenses.
                                                         NHTSA could better determine the impact of
                                                         structural changes, such as the establishment of
                                                         courts specializing in alcohol-impaired driving cases.
 Source: OIG
 *Percentage to be determined by NHTSA and the states.



The Federal regulations, issued by NHTSA, place the responsibility on each state
to develop performance measures, and NHTSA stated that under the regulations it
could not compel states to use specific measures. Further, NHTSA officials were
concerned that changing these rules and requiring specific intermediate
performance measures could result in the withholding of state funding if a state
failed to comply with the rules. Withholding funds could thereby reduce the level
of state safety activities. NHTSA was also concerned that states would have
difficulty consistently collecting the needed data for performance measures related
to alcohol-impaired programs.

We are not proposing the establishment of mandatory performance measures and
goals for the states that are tied to financial penalties. This would constitute a
significant change to the current rules that neither NHTSA nor the states are likely
to support. Additionally, we are not suggesting that states be compelled to adopt
potentially costly data reporting systems that may be counterproductive to the
progress states are achieving designing their own safety plans.
                                                                               15


However, in our view, NHTSA could take a number of feasible steps to lead states
to provide better information on the degree to which the key strategies NHTSA
and the states have identified are being carried out.

• First, instead of compelling states to adopt any specific performance measure,
  NHTSA could, over time, work with the states to develop intermediate
  performance measures that are feasible and meaningful.

• Second, NHTSA could require states to report on the use of the measures
  developed within the now publicly available Highway Safety Plans and Annual
  Evaluation Reports. Such reporting requirements would be similar to the
  requirement that states report to NHTSA on the problem identification process
  they follow in their traffic safety efforts.

• Finally, once measures are developed, NHTSA could assist states in
  overcoming difficulties in using the measures and in obtaining the data needed
  to report on measures, by periodically reviewing state progress in this area and
  identifying impediments to state implementation.

These actions, over time, would provide states with better tools to judge their
performance and provide for an easier comparison of practices across states.
Taking these actions would also enhance public accountability for programs to
counter alcohol-impaired driving by providing information on the degree to which
key strategies are being carried out by the states as they expend the resources
provided in SAFETEA-LU.

RECOMMENDATIONS
We recommend that the NHTSA Administrator:

   1. In coordination with the states, develop intermediate performance measures
      to use in carrying out the key strategies identified by NHTSA and the states
      for countering alcohol-impaired driving.

   2. Require that each state report in its Highway Safety Plan and Annual
      Evaluation Report the degree to which the intermediate performance
      measures developed for key strategies to counter alcohol-impaired driving
      are being implemented and the state’s results for each measure.

   3. Periodically assess the degree to which states have adopted the
      recommended intermediate performance measures, the results from the
      measures, and actions needed to assist states in fully implementing the use
      of the performance measures.
                                                                              16


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided NHTSA a draft of this report on December 15, 2006. On February 7,
2007, NHTSA provided us with formal comments on our draft report. A complete
copy of the comments is in the Appendix. In its comments, NHTSA reported
working closely with states to implement proven evidence-based impaired driving
strategies that will decrease fatalities and injuries.      NHTSA noted that
performance measures evaluating the progress of these strategies have focused on
activities accomplished and outcome measures. NHTSA also observed that while
these measures evaluate overall success, they do not indicate the degree to which
key strategies are being implemented. NHTSA further stated its work related to
this audit has already yielded improvements in the Alcohol-Impaired Driving
Traffic Safety Programs.

NHTSA identified planned actions that were responsive to our three
recommendations. NHTSA concurred with recommendations 1 and 3 and put
forth an alternative action for recommendation 2, which we have accepted.
Although NHTSA provided its written perspective on these recommendations, it
did not provide specific milestones for completing planned actions for two of the
three recommendations, and thus we are requesting that it do so.

NHTSA’s specific comments on the recommendations and OIG response to the
comments are summarized below.

NHTSA Comments. For recommendation 1, NHTSA concurred and stated that a
project scheduled to begin in 2007, with a completion date of no later than 2009,
will develop voluntary guidance on a set of intermediate performance indicators
that could be used by state and local governments to measure success in priority
program areas, which include impaired driving. NHTSA commented that
evaluations using intermediate performance measures will allow the states and
NHTSA to better determine the effectiveness of key strategies and adjust states’
Highway Safety Plans.

OIG Response. We consider NHTSA’s comments on recommendation 1 to be
responsive.

NHTSA Comments. For recommendation 2, which recommended that NHTSA
require each state to report in its Highway Safety Plan and Annual Evaluation
Report the degree to which the intermediate performance measures are being used,
NHTSA put forth an alternative action. NHTSA stated that after intermediate
performance measures are developed, it will recommend and encourage each state
                                                                                   17


to use the intermediate performance measures in their respective Highway Safety
Plans. If the states use the Plan, they will report on their use in the Annual Report.

OIG Response. We accept NHTSA’s alternative action. The actions proposed in
response to this recommendation in combination with the actions planned in
response to recommendation 3 will provide for NHTSA’s review and oversight of
each state’s efforts to develop intermediate performance measures. Moreover, the
availability of each state’s Highway Safety Plan and Annual Report on the
NHTSA website will meet the intent of the recommendation by providing
information on which performance measures a state is using. However, we
request that NHTSA provide a specific milestone date for providing a
recommendation to the states on the use of intermediate performance measures.

NHTSA Comments. For recommendation 3, which recommended that NHTSA
periodically assess the degree to which the states have adopted the recommended
measures, NHTSA concurred and agreed to incorporate into the regional staff
reviews of state Highway Safety Plans and Annual Reports an assessment of
progress on adoption, use, and results of intermediate impaired driving
performance measures. Once a state has fully adopted the use of intermediate
impaired driving performance measures, a formal assessment of the state’s system
for establishing measures and evaluating progress will be conducted every 3 years.

OIG Response. We consider NHTSA’s comments on recommendation 3 to be
responsive. However, we request that NHTSA provide specific milestone dates on
when it will modify the guidance for regional staff reviews on each state’s
Highway Safety Plan and Annual Report and the guidance for the triennial
management reviews and special reviews. The modifications will incorporate the
agreed-to assessments related to intermediate performance measures.

ACTIONS REQUIRED
NHTSA’s planned actions to address the three recommendations are considered
responsive, but we request that NHTSA provide specific milestone dates for
planned actions on two of the recommendations. We request that NHTSA provide
this information in a written response within 30 calendar days of this final report.
In accordance with Department of Transportation Order 8000.1C, the OIG will
track each recommendation until final action is completed.

We appreciate the courtesies and cooperation of representatives from NHTSA, the
states, and the organizations visited and contacted during this audit. If you have
any questions concerning this report, please call me at (202) 366-5630 or
Joe Comé, the Program Director, at (202) 366-0377.
                                          #
                                                                          18



EXHIBIT A. STATE ALCOHOL-IMPAIRED DRIVING FATALTITY
RATES AND NUMBER OF FATALITIES DURING TEA-21


        Table 4. State Alcohol Impaired Driving Fatality Rates*
          (Fatalities per 100 Million Vehicle Miles Traveled)
             During TEA-21 (Calendar Years 1998 – 2005)

        State    1998   1999   2000    2001   2002   2003   2004   2005
Alabama          0.80   0.83   0.75    0.66   0.71   0.71   0.73   0.71
Alaska           0.69   0.88   1.21    1.00   0.76   0.75   0.62   0.70
Arizona          0.98   0.90   0.95    0.98   0.94   0.87   0.78   0.82
Arkansas         0.76   0.72   0.76    0.66   0.80   0.82   0.83   0.73
California       0.47   0.47   0.47    0.50   0.51   0.50   0.51   0.52
Colorado         0.62   0.56   0.64    0.76   0.72   0.58   0.58   0.51
Connecticut      0.49   0.45   0.52    0.52   0.46   0.44   0.41   0.38
Delaware         0.57   0.50   0.74    0.77   0.56   0.67   0.55   0.69
D.C.             0.94   0.66   0.57    0.91   0.68   0.98   0.51   0.70
Florida          0.76   0.80   0.85    0.75   0.72   0.69   0.63   0.73
Georgia          0.55   0.53   0.56    0.52   0.49   0.44   0.47   0.48
Hawaii           0.74   0.54   0.64    0.68   0.53   0.76   0.66   0.70
Idaho            0.74   0.74   0.88    0.65   0.64   0.74   0.63   0.60
Illinois         0.61   0.63   0.61    0.60   0.62   0.60   0.56   0.54
Indiana          0.59   0.55   0.43    0.45   0.36   0.36   0.42   0.45
Iowa             0.56   0.58   0.47    0.51   0.44   0.47   0.35   0.38
Kansas           0.61   0.70   0.57    0.69   0.80   0.69   0.48   0.51
Kentucky         0.68   0.65   0.60    0.54   0.64   0.59   0.65   0.66
Louisiana        1.10   1.08   1.11    1.03   0.99   0.93   0.95   0.88
Maine            0.41   0.42   0.36    0.45   0.34   0.50   0.47   0.40
Maryland         0.46   0.44   0.48    0.54   0.51   0.52   0.52   0.42
Massachusetts    0.36   0.38   0.41    0.43   0.42   0.40   0.38   0.31
Michigan         0.59   0.59   0.54    0.53   0.49   0.48   0.42   0.40
Minnesota        0.57   0.40   0.49    0.42   0.47   0.48   0.34   0.35
Mississippi      1.04   1.05   1.08    0.77   0.92   0.86   0.89   0.88
Missouri         0.79   0.66   0.77    0.77   0.76   0.72   0.67   0.75
Montana          1.10   1.11   1.18    1.04   1.21   1.17   0.94   1.11
Nebraska         0.68   0.70   0.58    0.52   0.63   0.64   0.48   0.47
Nevada           1.07   0.88   0.79    0.73   0.92   0.93   0.76   0.77
New Hampshire    0.54   0.55   0.41    0.54   0.40   0.39   0.44   0.45
New Jersey       0.41   0.43   0.48    0.41   0.40   0.40   0.37   0.36
New Mexico       0.88   0.92   0.94    0.93   0.96   0.90   0.89   0.79
New York**       0.37   0.38   0.37    0.39   0.36   0.40   0.43   0.38
North Carolina   0.68   0.65   0.69    0.59   0.64   0.56   0.57   0.54
North Dakota     0.63   0.80   0.57    0.73   0.67   0.71   0.51   0.77
Ohio             0.51   0.51   0.53    0.57   0.52   0.43   0.44   0.46
Oklahoma         0.64   0.61   0.53    0.62   0.55   0.57   0.61   0.60


Exhibit A. State Alcohol-Impaired Driving Fatality Rates and Number
of Fatalities During TEA-21
                                                                                                                        19




   Table 4 (Continued). State Alcohol-Impaired Driving Fatality Rates*
            (Fatalities Per 100 Million Vehicle Miles Traveled)
              During TEA-21 (Calendar Years 1998 – 2005)

       State                 1998        1999        2000        2001       2002        2003        2004        2005
Oregon                       0.70        0.50        0.55        0.54       0.52        0.59        0.57        0.50
Pennsylvania                 0.64        0.61        0.63        0.63       0.62        0.58        0.57        0.59
Rhode Island                 0.45        0.43        0.49        0.60       0.56        0.71        0.51        0.52
South Carolina               0.87        0.89        1.05        1.25       1.16        1.02        0.93        0.94
South Dakota                 0.84        0.80        0.98        1.00       1.08        1.14        0.94        0.95
Tennessee                    0.82        0.80        0.82        0.79       0.71        0.64        0.76        0.66
Texas                        0.85        0.81        0.84        0.84       0.82        0.79        0.74        0.67
Utah                         0.31        0.41        0.47        0.30       0.29        0.20        0.30        0.15
Vermont                      0.61        0.53        0.47        0.43       0.34        0.35        0.41        0.38
Virginia                     0.49        0.46        0.48        0.46       0.49        0.48        0.46        0.43
Washington                   0.60        0.52        0.54        0.52       0.55        0.47        0.44        0.53
West Virginia                0.80        0.78        0.94        0.69       0.89        0.74        0.70        0.61
Wisconsin                    0.54        0.54        0.61        0.64       0.61        0.65        0.59        0.61
Wyoming                      0.88        0.91        0.61        0.95       0.74        0.68        0.64        0.72
Source: NHTSA
*Fatality rates presented are based on traffic crashes that resulted in fatalities where at least one driver,
motorcycle operator, pedestrian, or pedalcyclist involved had a BAC of .01 grams per deciliter or above.
**According to NHTSA, 2005 rates for New York are based on 2004 VMT and are subject to change.




                 Table 5. State Alcohol-Impaired Driving Fatalities*
                   During TEA-21 (Calendar Years 1998 – 2005)

       State                 1998       1999        2000        2001        2002       2003        2004          2005
Alabama                       442        465         426         374         410        414         432           423
Alaska                         31         40          56          47          37         37          31            35
Arizona                       444        424         469         487         489        471         446           492
Arkansas                      216        212         223         195         241        252         264           233
California                  1,367      1,397       1,450       1,552       1,628      1,629       1,667         1,719
Colorado                      244        229         268         328         314        252         265           244
Connecticut                   144        136         161         161         144        137         131           120
Delaware                       47         42          61          66          50         61          51            66
D.C.                           31         23          20          34          24         35          19            26
Florida                     1,039      1,139       1,277       1,281       1,279      1,287       1,224         1,471
Georgia                       528        524         585         558         533        483         536           545
Hawaii                         59         44          55          59          47         71          64            71




Exhibit A. State Alcohol-Impaired Driving Fatality Rates and Number
of Fatalities During TEA-21
                                                                                                                       20



       Table 5 (Continued). State Alcohol-Impaired Driving Fatalities*
                During TEA-21 (Calendar Years 1998 – 2005)

        State                1998       1999        2000        2001       2002        2003        2004         2005
Idaho                         100        104         119          91         91         106          93           89
Illinois                      619        646         628         623        653         637         613          580
Indiana                       405        384         303         320        262         261         304          320
Iowa                          163        169         139         152        137         145         111          118
Kansas                        165        193         161         193        227         199         139          151
Kentucky                      306        300         280         251        302         277         307          313
Louisiana                     443        445         454         444        427         410         424          394
Maine                          55         60          51          65         50          75          70           59
Maryland                      223        215         240         282        276         287         286          235
Massachusetts                 184        195         216         228        224         215         207          171
Michigan                      552        565         528         520        494         485         431          421
Minnesota                     285        206         258         225        256         266         191          201
Mississippi                   356        367         385         277        335         321         352          371
Missouri                      513        438         516         520        518         493         460          515
Montana                       105        109         117         104        126         127         105          124
Nebraska                      120        126         104          94        117         121          92           91
Nevada                        176        153         140         133        165         180         154          159
New Hampshire                  63         66          49          67         50          51          59           60
New Jersey                    267        283         322         285        281         279         270          263
New Mexico                    196        206         213         216        219         206         213          189
New York                      451        483         476         505        482         540         594          524
North Carolina                581        573         614         536        592         528         549          549
North Dakota                   46         58          41          53         49          53          39           58
Ohio                          531        535         562         608        558         466         492          505
Oklahoma                      268        258         229         270        251         260         282          283
Oregon                        233        172         186         187        180         207         204          177
Pennsylvania                  642        618         647         646        649         621         616          636
Rhode Island                   36         36          41          48         46          59          43           43
South Carolina                372        391         480         582        549         490         463          464
South Dakota                   68         66          83          85         92          97          83           80
Tennessee                     513        515         542         533        485         443         542          464
Texas                       1,745      1,700       1,841       1,807      1,810       1,771       1,704        1,569
Utah                           65         90         107          70         71          47          75           37
Vermont                        40         35          32          34         27          29          32           29
Virginia                      359        337         360         339        379         367         363          347
Washington                    313        274         286         281        299         261         247          294
West Virginia                 150        149         181         136        179         148         142          126
Wisconsin                     304        310         350         366        360         388         358          369
Wyoming                        71         71          49          82         67          63          59           65
Source: NHTSA
*Fatalities presented are based on crashes that resulted in fatalities where at least one driver, motorcycle
operator, pedestrian, or pedalcyclist involved had a BAC of .01 grams per deciliter or above.




Exhibit A. State Alcohol-Impaired Driving Fatality Rates and Number
of Fatalities During TEA-21
                                                                                  21



EXHIBIT B. OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives and Scope
The audit was conducted from January 2005 through August 2006 in response to a
request from the Fiscal Year 2005 House and Senate Committees on
Appropriations. Our audit objectives were to (1) compare the scope, direction,
resources, and expenditures of programs and activities of selected states with the
highest and lowest alcohol-related fatalities and identify best practices and
challenges; (2) determine the Federal resources dedicated to reducing alcohol-
related traffic fatalities; and (3) explore what actions NHTSA could take,
particularly regarding improved performance measures, to better ensure that funds
are targeted towards strategies that will have the most impact on reducing alcohol-
impaired driving.

The audit covered the period of FY 1998 through FY 2005, the same period in
which TEA-21 was applicable. We conducted this performance audit in
accordance with Generally Accepted Government Auditing Standards prescribed
by the Comptroller General of the United States and we performed such tests as
we considered necessary to detect fraud, waste, and abuse.

We did not undertake an announced audit objective to determine the defining
characteristics that constitute alcohol-related crashes. In follow-up meetings with
congressional staff, a joint decision was made not to pursue this objective because
our preliminary audit results found that the states reviewed were reporting alcohol-
related fatalities consistent with the definition of an impaired driving fatality set
forth in NHTSA’s Fatality Analysis Reporting System (FARS). FARS defines an
alcohol-related driving fatality as an “active” participant—driver, pedestrian, or
cyclist—with a BAC level of 0.01 or higher, who was involved in a traffic
accident.

As a result of our follow-up meetings with congressional staff, we also added an
objective to the audit to explore what actions NHTSA could take to better ensure
funds are targeted towards strategies that would have the most impact on reducing
alcohol-related driving fatalities. After our preliminary audit work was completed,
this objective was narrowed to focus on improving the use of performance
measures for key strategies reported by states because we found that the data
NHTSA needed to gauge the effectiveness of these strategies was limited.
Further, we agreed to limit the scope of the requested review only to those
resources associated with TEA-21 programs. Data limitations prevented us from
obtaining data needed to review state and other Federal agency resources.




Exhibit B. Objectives, Scope, and Methodology
                                                                                  22


We did not examine the quality of the FARS data, given other recent audit work
done by the Government Accountability Office, as discussed in the November
2004 report, GAO-05-24, “Highway Safety—Improved Monitoring and Oversight
of Traffic Safety Data Program Are Needed.” Further, we did not examine
NHTSA’s practice of statistically imputing FARS alcohol-related fatality data in
cases in which states did not provide sufficient data. In these instances, NHTSA
used a statistical model based on other crash information that the states provided
(for example, time of crash and police-reported alcohol involvement) to determine
whether alcohol was involved. Although we did not assess the imputation of
FARS alcohol-related fatality data, NHTSA has released detailed information on
the effectiveness of the method and on the confidence interval and standard error
associated with the estimate.

We did not review or comment on the effectiveness or adequacy of specific laws,
methods, media employed, or program strategies advocated by states, NHTSA,
other Federal agencies or professional, community, and industry organizations.
Instead, we developed a pattern of state trends based on the states’ approaches on
handling the problem of alcohol-impaired driving and how they enforced existing
alcohol-impaired driving laws. Our audit did not specifically look at other state
traffic safety programs that affect the success of the states’ alcohol-impaired
driving program, such as efforts at controlling speeding, increasing seat-belt
usage, and making roadways safer. These programs, according to NHTSA, affect
the survivability of individuals involved in alcohol-related traffic crashes.

Methodology
To compare the scope, direction, resources, and expenditures of programs and
activities of states with high and low alcohol-related fatalities, we conducted audit
work at 10 states: California, Connecticut, Ohio, Illinois, Missouri, New Jersey,
New Mexico, New York, Texas, and South Carolina. We selected these states to
obtain information from across a range of programs and to meet the congressional
direction to review states with high and low fatality rates.

To determine the amount of TEA-21 resources the states expended on alcohol-
impaired driving programs, we reviewed data from the NHTSA Grant Tracking
System and the Federal Highway Administration’s (FHWA) Fiscal Management
Information System. Additionally, we analyzed state Highway Safety Plans;
Annual Evaluation Reports; grant data, when available; and NHTSA-published
information on alcohol-impaired driving programs. We then compared the
information we obtained among the 10 states to the alcohol-impaired driving
strategies and countermeasures advocated by NHTSA and other Federal agencies,
such as the Centers for Disease Control, National Transportation Safety Board,
and the Department of Justice.


Exhibit B. Objectives, Scope, and Methodology
                                                                                                                    23


Our estimate for the total Federal resources that all states will expend for alcohol-
impaired driving safety programs funded through TEA-21 was derived by adding
reported expenditures in NHTSA's Grants Tracking System through FY 2005 to
our estimate of future expenditures for alcohol-impaired driving. To calculate the
future estimate of expenditures, we assumed that for the Section 410 grant
program, which by law must be expended on alcohol-impaired programs,
100 percent of any unexpended resources would be expended on alcohol-impaired
programs by the end of FY 2009, when they would expire under Federal
appropriations law. For other grant programs, which allow the state to spend all or
a portion of the grant on non-alcohol-related programs, we applied the historical
percentage of funds expended on alcohol-impaired driving programs for the
respective grants to any unexpended amount remaining. For example, if alcohol-
related expenditures were historically 60 percent of a specific grant, we applied
60 percent to any unexpended amounts.

We interviewed NHTSA and FHWA Headquarters staff members who were
responsible for recording grants. We also interviewed NHTSA regional office
personnel responsible for the state impaired driving programs in the states
selected. Finally, we interviewed a cross-section of the various professional,
community, and industry organizations with an interest in alcohol-impaired
driving safety.

State Selection. Our specific methodology for selecting the 10 states reviewed
involved dividing all 50 states and the District of Columbia into groups with
comparable VMT and choosing states with high and low alcohol-impaired driving
fatality rates within selected groups. 7 For example, from the states with the
highest VMT, we selected one with a relatively high rate—Texas—and one with a
relatively low rate—California. Our methodology provided eight states in our
sample for review—four with relatively higher fatality rates and four with
relatively lower fatality rates. We increased our sample to 10 states by
judgmentally selecting New York because of its relatively low fatality rate for a
large VMT state and New Mexico because of its relatively high alcohol-related
fatalities among states with fewer than 25,000 million VMT. Table 6 on the
following page shows the states selected and their alcohol-impaired driving
fatality rates.




7
    According to NHTSA, a direct comparison of states is difficult because of the many factors that can affect a state
    safety program, such as rural and urban differences, relevant state laws, traffic patterns, and use of public
    transportation. We used VMT as a basis of sample selection because it approximates states’ road use and is the basis
    of the alcohol-fatality rate NHTSA uses to judge state traffic safety program success.


Exhibit B. Objectives, Scope, and Methodology
                                                                                                                   24




     Table 6. State Selected Based on National Alcohol-Impaired Driving
                           Fatality Rates and VMT

                                                     2003              Relative                   2003
                                2003
                                                    Alcohol            Alcohol              Alcohol Fatality
                                VMT
   State Selected                                  Impaired            Driving             Rate (fatalities per
                            (in millions)                            Fatality Rate         100 million VMT)
                                                   Fatalities
 California                     323,592               1,629              Lower*                     0.50
 Texas                          223,418               1,771              Higher                     0.79
 New York                       135,047                540                Lower                     0.40
 Ohio                           108,938                466               Lower                      0.43
 Illinois                       106,536                637               Higher                     0.60
 New Jersey                     69,778                 279               Lower                      0.40
 Missouri                       68,163                 493               Higher                     0.72
 Connecticut                    31,432                 137               Lower                      0.44
 South Carolina                 48,120                 490               Higher                     1.02
 New Mexico                      22,844                206               Higher                     0.90
 Source: NHTSA and OIG
 *Lower means the state had a relatively low fatality rate in comparison with the other states with similar VMT.


When we selected our sample states, 2003 was the latest year in which alcohol-
related fatality data were available. The number of state fatalities and the state
fatality rate fluctuate yearly and thus the 2003 rate may not reflect how a state is
now performing.

Data and Limitations. In many instances we relied on publicly reported data
and information from NHTSA, such as the number of alcohol-related driving
fatalities and fatality rates, and state reported data and information. We did not
perform tests of the reliability or accuracy of the systems used to generate the data
nor the specific statistical techniques used. We did verify that the 10 states we
reviewed reported fatalities consistent with the criteria NHTSA established.

When identifying Federal resources expended on alcohol-impaired driving
programs, we relied on NHTSA and FHWA’s financial systems. The FHWA
system could identify only the amount expended on impaired driving at a
summary level. For example, for Section 163 grants, the systems showed only
whether the expenditure was incurred for a behavioral traffic safety activity in
general or a hazard elimination project. According to NHTSA and FHWA, more
detailed expenditure data were not required for these financial systems because
other internal controls are in place to ensure that funds are expended correctly.
Specifically, state safety offices are required to have a grant review process in
place to review and document all grants submitted by local communities and
payments are subject to the review of regional offices. To obtain an exact figure

Exhibit B. Objectives, Scope, and Methodology
                                                                             25


of alcohol-impaired driving expenditures, an audit of the expenditures of all 50
states and the District of Columbia would have to be performed. Because NHTSA
and FHWA do not require this level of detail for the FHWA system, and because
gathering such information would be time-consuming for the states, we did not
request this information from states.




Exhibit B. Objectives, Scope, and Methodology
                                                                                             26



EXHIBIT C. NHTSA-ADVOCATED STRATEGIES DURING TEA-21
During TEA-21, NHTSA-advocated alcohol-impaired driving strategies were
outlined in several traffic safety bulletins, research and demonstrative project
reports, congressional testimony, grant guidelines, and other reports. In addition,
NHTSA advocated the need for a comprehensive approach to traffic safety,
especially in the area of increasing seat-belt use, to increase the survivability of
vehicle occupants in an alcohol-related traffic crash. Throughout TEA-21,
NHTSA provided states with Section 402 Formula Grant “uniform grant
guidelines” as a framework for state alcohol-impaired driving programs that
centered on: program management, prevention, deterrence, drivers licensing,
treatment, and rehabilitation. Within this framework, NHTSA recommended that
states adopt a mix of laws, strategies, and practices (see Table 7).


     Table 7. NHTSA-Recommended Laws, Strategies, and Practices to
                        Increase Traffic Safety

      Program                                                               Treatment and
                               Deterrence             Prevention
     Management                                                             Rehabilitation
 - Program planning       - Laws                 - Public information    - Diagnosis and
 - Program control        - Public information     and education for       screening
                            and education           prevention           - Treatment and
 - State and local
   task forces and safe   - Enforcement          - School programs         rehabilitation
   community programs     - Prosecution          - Employer programs
 - Data and records       - Adjudication         - Responsible alcohol
 - Evaluation                                      service

 - Funding                                       - Transportation
                                                   alternatives
 Source: NHTSA


In December 2003, NHTSA issued Initiatives to Address Impaired Driving, which
provided initiatives for states to adopt in their alcohol-impaired driving programs.
The initiatives were identified in two major categories, “Countermeasure Needs”
and “Infrastructure Needs,” as listed in Table 8 on the following page.




Exhibit C. NHTSA-Advocated Strategies During TEA-21
                                                                                                        27




            Table 8. NHTSA’s Initiatives to Address Impaired Driving

             Countermeasure Needs                                  Infrastructure Needs
 - High visibility law enforcement.                      - Promote statewide self-sufficiency.
 - Specialized DWI courts.                               - Increase post-crash BAC testing.
 - DWI prosecutors.                                      - Implement NHTSA’s model impaired driving
 - Increased efficiency and offender processing.           records system.

 - Strong alcohol beverage control and enforcement.      - Establish state DWI task forces or similar
                                                           institutional bodies.
 - Alternative sanctions/limitations on pre-conviction
   diversion program.                                    - Enact comprehensive state legislation.

 Source: NHTSA


NHTSA followed this initiative with another in July 2004, The Nation’s New
Strategy to Stop Impaired Driving, which identified three new priorities on which
states should focus their impaired-driving programs: high visibility enforcement,
support for prosecutors and DWI courts, and screening and brief intervention of
patients with alcohol problems.




Exhibit C. NHTSA-Advocated Strategies During TEA-21
                                                                                                      28




EXHIBIT D. ADDITIONAL INFORMATION ON FEDERAL
RESOURCES DEVOTED TO ALCOHOL-IMPAIRED PROGRAMS
In 1998, Congress passed TEA-
21 to provide states with grants
that support traffic behavioral                Table 9. TEA-21 Alcohol Grants
safety programs, such as                 and Penalty Transfers Available to the
reducing speeding, increasing                                           States
seat-belt usage, and reducing the
                                    Section 402 -                            Support state overall efforts
number of alcohol-impaired State and Community                               to reduce traffic crashes,
driving      related    fatalities. Highway Safety Formula                   injuries, and deaths.
Further, in 2000, two penalty Se    Section 410 -
                                                                             Encourage use of innovative
                                                                             alcohol-impaired driving
transfer programs were created.     Al co h o l - I mp ai red Dri vi n g
                                                                             countermeasures and
                                    Countermeasures
They were created to “penalize”                                              related projects.
states for not having strict Section 163.08 -                                Encourage adoption of .08
                                                                             BAC level as the impaired-
sanctions against repeat alcohol- BAC Incentives                             driving legal threshold.
impaired drivers and for failing                                             Encourage adoption of
to establish laws discouraging RSeecpteioatnO1f6f4en- der Law                stricter penalties for
open alcohol containers in Penalty Transfer                                  impaired-driving repeat
                                                                             offenders.
vehicles. Table 9 provides a list                                            Encourage adoption of laws
of the TEA-21 grants and O          Section 154 -
                                      pen Container Law
                                                                             aimed at reducing driving
penalty transfers that were Penalty Transfer                                 with open alcohol
                                                                             containers.
available to the states. Except Source: NHTSA
for Section 410 grants, all the
grants and transfers could be used for any safety purpose in addition to alcohol-
impaired driving. For example, a grant or transfer could be used in the elimination
of highway hazards, such as widening lanes or adding rumble strips on highways

Under TEA-21, states that did not have specified sanctions against repeat alcohol-
impaired drivers were required to transfer a percentage of their Federal-Aid
Highway Program funds to either an alcohol-impaired driving program or a
highway hazard elimination project, such as building road rumble strips.

Table 10 on the following page shows estimated expenditures for alcohol
programs; other traffic safety initiatives, such as seat belt programs; and the
highway hazard elimination programs. Further, from FY 1998 through FY 2005,
states expended approximately $753 million in TEA-21 resources on alcohol-
impaired driving programs. Based on past expenditure data, we estimate that
states will spend an additional $349 million of TEA-21 resources on alcohol-
impaired driving programs by 2009. These funds were allocated to the states
throughout TEA-21, but at the time of our audit had not yet been expended.


Exhibit D. Additional Information on Federal Resources Devoted to
Alcohol-impaired Programs
                                                                                                           29




              Table 10. TEA-21 Expenditures on Safety Programs
                             (FY 1998—FY 2005)
                                ($ in millions)

                                                                                         Highway
           TEA-21 Grants and                 Alcohol             Other
                                                                                         Hazard
            Penalty Transfers               Programs          Traffic Safety
                                                                                         Projects
       402 Formula Grants                     $167.3              $936.0                   N/A
       163 .08 BAC Incentives*                 145.4               N/A                    $219.9
       163 SES Initiatives                       3.0               N/A                     N/A
       410 Impaired Driving                    199.0               N/A                     N/A
       154 Open Container
                                                 99.2               N/A                     153.7
           Penalty Transfer
       164 Repeat Offender
                                               118.8                N/A                     255.9
           Penalty Transfer
       157 Seat Belt Incentive**                20.2               221.2                    N/A
       Total***                                $752.9            $1,157.2                  $629.4
       Source: NHTSA, FHWA, and OIG
       *As discussed in Exhibit B, we were unable to determine the precise amount states expended
       from Section 163 grants on alcohol-impaired driving because FHWA, the agency responsible for
       financial control of Section 163 grants, identified those grant expenditures as either behavioral
       safety or highway hazard elimination. To provide a conservative estimate, we included all
       behavioral safety related amounts in our alcohol programs expenditure estimate. Therefore,
       actual alcohol-impaired driving expenditures by states may be less.
       **Section 157 Seatbelt Incentive Grants were provided to states to increase seatbelt usage.
       Criteria for using the grants were the same as for Section 402 formula grants.
       ***We rounded each category of grants and penalty transfers to the nearest tenth. As a result,
       rounding differences are present in the totals.


Cumulative state TEA-21 alcohol-impaired driving expenditures from FY 1998
through FY 2005 ranged from $850,000 to $86 million per state. Table 11 on the
following page provides a breakdown of state expenditures by alcohol programs,
other traffic safety, and highway hazard elimination projects.




Exhibit D. Additional Information on Federal Resources Devoted to
Alcohol-impaired Programs
                                                                                                                              30




 Table 11. Total TEA-21 Alcohol-Impaired Driving Grants and Penalty Transfer Funds
                                Expended by States
                                 (FY 1998—FY 2005)
                                    ($ in millions)

                                        Other        Highway                                                Other         Highway
                       Alcohol                                                             Alcohol
      S ta te                           Traffic      Hazard               S ta te                           Traffic       Hazard
                      Programs*                                                           Programs*
                                        Safety       Projects                                               Safety        Projects
Alabama                   $12.1          $18.2          $5.0       Montana                     13.3             5.2          10.8
Alaska                      5.5            4.9          12.6       Nebraska                     7.9             7.8           3.1
Arizona                    13.9           13.0           0.1       Nevada                       3.0             9.2             0
Arkansas                   11.6           10.1           7.3       New Hampshire                1.9             4.9           2.2
California**               86.3          169.9          86.0       New Jersey**                 5.9           30.8            0.2
Colorado                    7.7           15.4          18.2       New Mexico**                 7.1           14.1           11.7
Connecticut**              23.4           11.7           1.8       New York**                  10.2           83.2           33.0
Delaware                    5.0            4.5           5.3       North Carolina              27.2           37.2            6.3
D.C.                        5.1            4.9           0.4       North Dakota                 3.4             7.5          13.8
Florida                    53.3           37.8           5.6       Ohio**                      18.0           47.1           51.1
Georgia                    21.3           34.2          10.5       Oklahoma                     6.4           16.3            3.0
Hawaii                      6.0            4.7           1.4       Oregon                      17.6           19.6           10.2
Idaho                       5.1            5.7           2.9       Pennsylvania                22.2           35.3              0
Illinois**                 45.3           42.9          25.3       Rhode Island                 2.7             3.8           4.1
Indiana                    20.1           25.6          18.9       South Carolina**            10.9           13.9           10.8
Iowa                       14.5           12.5             0       South Dakota                 0.8             8.6          17.1
Kansas                      6.9           11.9           7.0       Tennessee                   31.5           22.3           10.0
Kentucky                    7.1           14.2           6.9       Texas**                     30.6           84.4           65.7
Louisiana                   6.4           16.4          28.7       Utah                         5.3           10.5            4.8
Maine                       2.9            4.2           1.9       Vermont                      6.1             5.2           4.3
Maryland                    4.7           30.5          13.2       Virginia                    32.8           26.1           11.9
Massachusetts              11.1           19.8           3.7       Washington                  14.5           28.0            8.3
Michigan                   15.5           34.6           2.3       West Virginia                2.8             7.3           5.6
Minnesota                  27.4           21.8           4.6       Wisconsin                   12.6           19.6            5.2
Mississippi                12.7           12.3           3.2       Wyoming                      3.4             4.2          29.5
Missouri**                 24.0           23.4          34.4       Total***                   $752.9        $1,157.2        $629.4
Source: NHTSA, FHWA and OIG
*As discussed in Exhibit B, we were unable to determine the precise amount states expended from Section 163 grants on alcohol-
impaired driving because FHWA, the agency responsible for financial control of Section 163 grants, identified only those grant
expenditures as either behavioral safety or highway hazard elimination. To provide a conservative estimate, we included all behavioral
safety related amounts in our alcohol programs expenditure estimate. Therefore, actual alcohol-impaired driving expenditures by states
may be less.
**State selected for our 10 state comparisons.
***We rounded each state to the nearest tenth. As a result rounding differences are present if state totals are added together and
compared with the totals presented in Table 10.




            Exhibit D. Additional Information on Federal Resources Devoted to
            Alcohol-impaired Programs
                                                 31


EXHIBIT E. ACTIVITIES VISITED OR CONTACTED

National Highway Traffic Safety Administration
  Traffic Injury Control
  Office of Impaired Driving Program
  Office of Strategic and Program Planning
  NHTSA Regional Offices:
     Central
     Eastern
     Great Lakes
     New England
     South Central
     Southeast
     Western

Federal Highway Administration
  Office of Safety Programs
  Office of Highway Policy Information
  Travel Monitoring and Surveys Division

National Transportation Safety Board
  Safety Advocacy Division

State Highway Safety Office and State Police
  California Office of Traffic Safety
  California Highway Patrol
  Connecticut Highway Safety Office
  Connecticut Department of Public Safety
  New Jersey Division of Highway Safety
  New Jersey State Police
  New York Governor’s Traffic Safety Committee
  New York State Police
  Ohio Governor’s Highway Safety Office
  Ohio State Highway Patrol
  Illinois Division of Traffic Safety
  Illinois State Police


Exhibit E. Activities Visited or Contacted
                                                                     32


State Highway Safety Office and State Police (cont.)
  Missouri Department of Transportation Division of Highway Safety
  Missouri State Highway Patrol
  New Mexico Traffic Safety Bureau
  New Mexico Department of Public Safety
  South Carolina Office of Highway Safety
  South Carolina Highway Patrol
  Texas Department of Transportation Traffic Safety Office
  Texas Department of Public Safety

Other Organizations Contacted
  American Beverage Institute
  Governors Highway Safety Association
  Insurance Institute for Highway Safety
  International Association of Chiefs of Police
  Mothers Against Drunk Driving
  National Sheriffs’ Association
  The Century Council




Exhibit E. Activities Visited or Contacted
                                                           33




EXHIBIT F. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                               Title

  Joe Comé                           Program Director

  Paulette Heggins-Carter            Supervisory Auditor

  David Pouliott                     Senior Auditor

  Carl Christian                     Senior Analyst

  Alvin Schenkelberg                 Senior Auditor

  Jovanny Roque                      Analyst

  Harriet E. Lambert                 Writer-Editor

  Amy Berks                          Associate Counsel




Exhibit F. Major Contributors to This Report
                                                                                               34



           APPENDIX. AGENCY COMMENTS




           U.S. Department
                                                                  Memorandum
           of Transportation

           National Highway
           Traffic Safety
           Administration


Subject:   Response to Draft Report on Audit of the                Date:

           Alcohol-Impaired Driving Traffic Safety
           Programs (05M3002M000)
 From:     Nicole R. Nason                                      Reply to:   Becky Batts
           Administrator                                                    OIG
                                                                            X3-0331
    To:    Kurt Hyde
           Assistant Inspector General
            for Surface and Maritime Programs

           Thank you for the opportunity to comment on the draft report and for the effort expended by your
           staff in developing the findings and recommendations. We think that our work related to this
           audit has already yielded improvements in the Alcohol-Impaired Driving Traffic Safety Programs
           and we look forward to taking additional steps that you have identified.

           We concur with the findings and recommendations of the report. Attached are our detailed
           responses to each recommendation and clarifying comments on the report itself.

           Attachments




           Appendix. Agency Comments
                                                                                        35




             NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
                         RESPONSE ON OIG REPORT

TITLE: Audit of the National Highway Traffic Safety Administration’s Alcohol Impaired
Driving Traffic Safety Program. PROJECT NUMBER: 05M3002M000,
December 2006.

       NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION POSITION

Reducing alcohol related fatalities has been and remains a top priority for the National Highway
Traffic Safety Administration (NHTSA). Alcohol-related traffic fatalities accounted for 39 percent
(16,885) of reported traffic deaths in 2005, representing an average of one alcohol related fatality
every 31 minutes. Although there has been a 0.2 percent reduction from 2004 and a five percent
reduction from 1995, alcohol-related fatalities constitute almost 40% of traffic deaths.

NHTSA works closely with States to help them utilize highway safety funds to implement proven
evidence-based impaired driving strategies that will decrease fatalities and injuries. Performance
measures that evaluate progress of theses strategies have focused on activities accomplished or
outcome measures such as total fatalities and a ratio of fatalities to total number of miles driven.
While these measures evaluate overall success, they do not indicate the degree to which key
strategies are being implemented.

Recommendation I: In coordination with the States, develop intermediate performance measures
to use in carrying out the key strategies identified by NHTSA and the States for countering
alcohol-impaired driving.

Response: NHTSA concurs with this response. Intermediary evaluation will allow States and
NHTSA to better determine effectiveness of key strategies and make adjustments to the Highway
Safety Plan, if necessary.

NHTSA is planning a demonstration project to develop voluntary guidance on a set of intermediate
performance indicators that could be used by State and local governments to measure success in
priority program areas, which include impaired driving. The development of these measures will
be accomplished through a cooperative process involving NHTSA and State highway safety
offices. The demonstration project is scheduled to be awarded in 2007, with a completion date of
no later than 2009.

NHTSA has used intermediate performance measures to assess impaired driving activities in
specific grant programs and research and development activities. For example, NHTSA has
already adopted several intermediate performance measures under the Alcohol Impaired Driving
Prevention Program at 23 U.S.C. § 410- the result of statutory changes made by SAFETEA-LU.

Recommendation II: Require that each State report in its Highway Safety Plan and Annual
Evaluation report the degree to which the intermediate performance measures developed for key


Appendix. Agency Comments
                                                                                       36


strategies to counter alcohol-impaired driving are being implemented and the State’s results for
each measure.

Response: After development of intermediate performance measures, NHTSA will recommend
and encourage States to use these measures in their Highway Safety Plan and, if used, report on
their use and results in the Annual Report.

The final rule for 23 CFR Part 1200.33, Uniform Procedures for State Highway Safety Programs,
requires each State to submit an annual report that describes States progress in meeting its highway
safety goals, using performance measures identified in the Performance Plan.

NHTSA staff will provide technical assistance and guidance to States as needed during
Management and Special Management Reviews, during the highway safety planning process, and
during review of completed Highway Safety Plans and Annual Reports. This will be included as a
task in Regional Action Plans.

Recommendation III: Periodically assess the degree to which States have adopted the
recommended performance measures, the results from the measures, and actions needed to assist
states in fully implementing the use of performance measures.

Response: NHTSA concurs with this recommendation. Regional NHTSA staff review and
provide written feedback to States on each Highway Safety Plan and Annual Report. Staff will
incorporate into the reviews an assessment of progress on adoption, use, and results of
intermediate impaired driving performance measures. Once a State has fully adopted use of
intermediate impaired driving performance measures, a formal assessment of the States system for
establishing measures and evaluating progress will be conducted once every three years during the
management review and during any special management reviews or impaired driving technical
program assessments.




Appendix. Agency Comments
